APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(April 19, 2021) . . . . . . . . . . . . . . . App. 1
Appendix B Order Denying Motion for Summary
Judgment Based on Qualified
Immunity in the United States
District Court for the Western District
of Tennessee
(April 1, 2020) . . . . . . . . . . . . . . . App. 12

App. 1

APPENDIX A
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 21a0085p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 20-5375
[Filed April 19, 2021]
______________________________________
JASON CUNNINGHAM, individually and
as adult natural son and sole wrongful
death beneficiary and next of kin,
affiant and administrator ad litem and
personal representative for Nancy Jane
Lewellyn, Deceased, and Estate of Nancy
Jane Lewellyn,
Plaintiff-Appellee,
v.

)
)
)
)
)
)
)
)
)
)
SHELBY COUNTY, TENNESSEE;
)
SHERIFF WILLIAM OLDHAM,
)
Defendants,
)
)
ROBERT PASCHAL and MARVIN WIGGINS, )
individually and in their official
)
capacities as Shelby County Sheriff’s
)
Deputies,
)
Defendants-Appellants. )
______________________________________ )

App. 2
Appeal from the United States District Court
for the Western District of Tennessee at Memphis.
No. 2:18-cv-02185—Thomas L. Parker, District
Judge.
Argued: November 19, 2020
Decided and Filed: April 19, 2021
Before: NORRIS, SUTTON, and KETHLEDGE,
Circuit Judges.
_________________
COUNSEL
ARGUED: E. Lee Whitwell, SHELBY COUNTY
ATTORNEY’S OFFICE, Memphis, Tennessee, for
Appellants. Daniel A. Seward, SEWARD LAW FIRM,
Memphis, Tennessee, for Appellee. ON BRIEF: E. Lee
Whitwell, John Marshall Jones, SHELBY COUNTY
ATTORNEY’S OFFICE, Memphis, Tennessee, for
Appellants. Daniel A. Seward, SEWARD LAW FIRM,
Memphis, Tennessee, for Appellee.
_________________
OPINION
_________________
ALAN E. NORRIS, Circuit Judge. This appeal has
its origins in the fatal shooting of Nancy Lewellyn by
Shelby County, Tennessee, deputy sheriffs Robert
Paschal and Marvin Wiggins. The representative of
Lewellyn’s estate filed this action pursuant to 42
U.S.C. § 1983, alleging that the deputies used excessive
force in violation of the Fourth Amendment’s guarantee
that citizens have the “right to be secure in their

App. 3
persons . . . against unreasonable . . . seizures.” U.S.
Const. amend. IV.
Deputies Paschal and Wiggins appeal from the
district court’s denial of their motion for summary
judgment based upon their claims of qualified
immunity. Two features distinguish this case from the
typical excessive force claim: the entire shooting
incident was recorded by dashboard cameras and
“screen shots”—stop action frames from the
recordings—were relied upon by the district court when
analyzing the shooting. When videotape footage exists,
the reviewing court need not credit the version of a
party who asserts facts “blatantly contradicted” by the
videotape; rather it should view the facts in the light
depicted by the videotape. Scott v. Harris, 550 U.S. 372,
380-81 (2007); see also Rudlaff v. Gillispie, 791 F.3d
638, 639 (6th Cir. 2015).
I.
Each of the dashcam videos begins with the receipt
of the dispatcher’s message informing the deputies of
the situation which resulted in the shooting at issue.
We begin there.
Around noon on March 17, 2017, the dispatcher for
the Shelby County Sheriff’s Department alerted three
of the department’s deputies to the potential danger
posed by a 911 caller. That caller was Nancy Lewellyn.
She told the dispatcher that “she was depressed and
suicidal, that she had a gun, and that she would kill
anyone who came to her residence.” (Page ID 645.).
Three deputies—Justin Jayroe, Paschal and Wiggins—
responded. Each drove a Sheriff’s Department cruiser

App. 4
equipped with a dashboard camera, which recorded
video, sound, and the time of day.
The deputies were also aware from the dispatcher
that Lewellyn was “suffering from some type of mental
illness and/or crisis,” and that she was saying she was
armed with “what may be a .45 caliber pistol.” (Page ID
646.)
Deputy Jayroe arrived first, shortly after 12:13
p.m., and parked his cruiser facing Lewellyn’s house.
Deputy Paschal arrived soon thereafter and parked
behind him, as did Deputy Wiggins.
At 12:14 p.m., Lewellyn walked out of her front door
and turned towards the driveway in front of her home’s
garage where a sedan was parked. She carried
something in her right hand, which was later
determined to be a BB handgun but resembled a .45
caliber pistol.
The video recorded by the dashboard camera in
Jayroe’s cruiser shows that she began walking towards
the driveway and, as she proceeded, began to raise the
handgun. One of the deputies yelled to her. The parties
disagree whether the video shows Lewellyn beginning
to turn towards the deputies. It was then that Paschal
fired his service pistol once. A second shot followed
after a short pause. As Lewellyn continued walking
with her right arm extended horizontally and the pistol
pointed in the direction of her car, Deputy Wiggins,
who was the last to arrive and who had initially taken
cover behind the parked cruiser, also began shooting.
After reaching the vehicle, Lewellyn leaned on its hood
briefly and then turned back toward the house. As the

App. 5
firing continued, she took a few steps and collapsed. A
total of eleven seconds had elapsed since she exited her
house.
Altogether, ten shots had been fired; eight struck
Ms. Lewellyn. Although not visible to the deputies, nor
to us on the video, she had deposited the BB handgun
on the sedan’s hood before turning back. As she lay on
the driveway, the deputies approached her and
demanded that she show her hands before discovering
that she was unarmed. They rendered medical aid
while awaiting EMS personnel. Ms. Lewellyn died at
the scene.
II.
We review de novo the district court’s denial of
defendants’ motion for summary judgment based upon
qualified immunity. Stoudemire v. Mich. Dep’t of
Corrs., 705 F.3d 560, 565 (6th Cir. 2013).
Qualified immunity shields federal and state
officials from money damages unless a plaintiff alleges
facts showing (1) that the official violated a statutory or
constitutional right, and (2) that the right was clearly
established at the time of the challenged conduct.
Ashcroft v. al-Kidd, 563 U.S. 731, 735 (2011) (citing
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982)).
Because both prongs must be satisfied by the plaintiff,
we are permitted to decide which prong of the qualified
immunity equation to tackle first. al-Kidd, 563 U.S. at
735 (citing Pearson v. Callahan, 555 U.S. 223, 236
(2009)).
We will begin by considering the second prong,
which asks whether on March 17, 2017, it was “clearly

App. 6
established” that deputies Paschal and Wiggins’ resort
to lethal force violated a Fourth Amendment right “of
which a reasonable person would have known.” White
v. Pauly, 137 S. Ct. 548, 551 (2017) (quoting Mullenix
v. Luna, 577 U.S. 7, 11 (2015)). “Because the focus is on
whether the officer had fair notice that her conduct was
unlawful, reasonableness is judged against the
backdrop of the law at the time of the conduct.”
Brosseau v. Haugen, 543 U.S. 194, 198 (2004).
Although the Supreme Court’s “case law does not
require a case directly on point for a right to be clearly
established, existing precedent must have placed the
statutory or constitutional question beyond debate.”
White, 137 S. Ct. at 551 (quotation omitted). “In other
words, immunity protects all but the plainly
incompetent or those who knowingly violate the law.”
Id. (internal quotation marks omitted). Plaintiff bears
the burden of showing that defendants are not entitled
to qualified immunity. Untalan v. City of Lorain, 430.
F.3d 312, 314 (6th Cir. 2005).
The district court pointed to precedent from this
court that it believed had clearly established before
March of 2017 that, for Paschal and Wiggins to been
titled to qualified immunity under the circumstances of
this case, they must have perceived a threat to
themselves or others from Nancy Lewellyn. Then,
recounting conclusions it had drawn from its denial of
qualified immunity under the first prong, the court
concluded that “[u]sing lethal force when a disputed
view of the evidence suggests that Lewellyn neither
pointed her gun toward the officers nor used the gun in
a threatening way violates a clearly established Fourth

App. 7
Amendment right under Sixth Circuit precedent.”
(Page ID 747.)
The court relied upon three cases from our court to
support its conclusion that defendants had fair warning
that their conduct violated the Fourth Amendment.
The first of these cases, King v. Taylor, 694 F.3d 650
(2012), was also cited by plaintiff’s counsel during oral
argument in response to a request that he point us to
a case based upon facts sufficiently similar to those
before us that clearly established that the deputies’ use
of deadly force violated the Fourth Amendment.
In King, the district court analyzed a dispute over
whether the victim of a deadly shooting had pointed a
gun at the officer just before being shot, as the officer
had related. Although his account was called into
question by expert forensic evidence that the position
of the victim’s body made the officer’s version unlikely,
the district court concluded qualified immunity was
warranted.
Noting that the plaintiff’s estate, as the non-moving
party, was entitled to have courts view the facts in the
light most favorable to the estate, a panel of this court
concluded that fact issues precluded qualified
immunity. Id. at 664.
The circumstances in King are easily distinguished
from those before us. First, because the events in this
case are recorded on video, the facts are viewed in the
video’s light, not in a light favorable to plaintiff.
Second, no competing versions of material fact are
before us in this appeal, as the evidence before us is
undisputed, since it is revealed on the video.

App. 8
Accordingly, King cannot represent “existing precedent
[that] squarely governs the specific facts at issue” in
this appeal. Kisela v. Hughes, 138 S. Ct. 1148, 1153
(2018).
In addition to King, the district court construed
Brandenburg v. Cureton, 882 F.2d 211 (6th Cir. 1989),
and Dickerson v. McClellan, 101 F.3d 1151 (6th Cir.
1996), as supporting the proposition that “the use of
lethal force against an armed suspect who does not
pose an imminent threat of harm constitutes a Fourth
Amendment violation.” (Page ID 744.) While we have
no quarrel with the proposition of law stated by the
district court, the devil is in the details. In both
Brandenburg and Dickerson, law enforcement officers
fatally shot an individual who, in the moments
preceding his death, had possessed and discharged a
firearm. As in King, the district court in each case
found that qualified immunity was inappropriate
because conflicting evidence existed concerning
whether the deceased posed an imminent threat to the
officers or others. Because the evidence must be viewed
in a light most favorable to the non-moving party, the
district courts each found that the issue should be
submitted to the jury; no videotapes of the incidents at
issue existed. The situation facing us in the instant
appeal is distinguishable because we view the facts in
the light depicted by the videotape, Rudlaff, 791 F.3d
at 639. In contrast to the three cases relied upon by the
district court, there is no dispute about how the
shooting of Ms. Lewellyn unfolded. Our task is to
determine whether the videotapes portray a
constitutional violation of the kind that a reasonable
deputy should have understood.

App. 9
None of the three cases relied upon by the district
court identifies situations where officers acting under
circumstances similar to those faced by deputies
Paschal and Wiggins were held to have violated the
Fourth Amendment. See White, 137 S. Ct. at 552
(holding that “clearly established law” should not be
defined at a high level of generality); D.C. v. Wesby, 138
S. Ct. 577, 590 (2018). None of them involved the
ultimate victim calling the police to declare that she
possessed a firearm and intended to use it against
anyone who came to her residence. And in none of them
was it undisputed that the victim of the police shooting
was brandishing a firearm in the manner Lewellyn
displayed in the video. Deputy Paschal said in his
deposition that he felt threatened by her display of the
gun as he perceived her beginning to turn in the
deputies’ direction. The district court’s reliance on a
stop action “screen shot” notwithstanding (see Part III),
Paschal’s perception is consistent with the video viewed
in real time.
In reaching this conclusion, we return to the
fundamental axiom that excessive force claims are
analyzed under an objective reasonableness standard.
Graham v. Connor, 490 U.S. 386, 395 (1989). In
Graham, the Court explained that the application of
the reasonableness standard in this context “requires
careful attention to the facts and circumstances of each
particular case, including the severity of the crime at
issue, whether the suspect poses an immediate threat
to the safety of the officers or others, and whether he is
actively resisting arrest or attempting to evade arrest
by flight.” Id. at 396 (citation omitted). In addition,
“[t]he ‘reasonableness’ of a particular use of force must

App. 10
be judged from the perspective of a reasonable officer
on the scene, rather than with the 20/20 vision of
hindsight.” Id. In our view, the “facts and
circumstances” support the deputies’ contention that
reasonable officers would perceive that Lewellyn posed
an immediate threat to their safety.
As neither plaintiff nor the district court has
pointed us to existing precedent that squarely governs
the specific facts and circumstances of this appeal that
would have given Deputies Paschal and Wiggins fair
notice that their conduct was unlawful, they are
entitled to qualified immunity.
III.
Because plaintiff cannot prevail on the second prong
of the qualified immunity analysis, we need not delve
deeply into the district court’s conclusion with respect
to the first prong: that material questions of fact
precluded summary judgment in favor of deputies
Paschal and Wiggins.
Specifically, we are troubled by the district court’s
use of “screen shots” to analyze the dashcam videos. By
relying on screen shots, a court would violate the
teaching of Graham against judging the reasonableness
of a particular use of force based upon 20/20 hindsight.
While the district court acknowledged that it “spent
much time pinpointing moments” to help it to establish
what occurred, it conceded that such moments “do not
tell the full story” in light of “how quickly the incident
occurred.” (Page ID 716, n.9). We agree and therefore
believe that the district court erred by including
several screen shots in its opinion to support its

App. 11
conclusions. For example, directly below one screen
shot, the court stated that “[b]ased on the video
footage, the Court finds that a genuine dispute of
material fact exists about whether Lewellyn pointed
her gun in the deputies’ direction when she reached the
driveway.” (Page ID 721.) To the extent that the
district court relied upon screen shots, as it apparently
did here, to decide whether it was objectively
reasonable for the officers to use lethal force, it erred.
The deputies’ perspective did not include leisurely
stop-action viewing of the real-time situation that they
encountered. To rest a finding of reasonableness on a
luxury that they did not enjoy is unsupported by any
clearly established law and would constitute reversible
error.
IV.
For the foregoing reasons, we vacate the judgment of
the district court and remand the cause with
instructions to grant summary judgment to
defendants-appellants based upon qualified immunity.

App. 12

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
No. 2:18-cv-02185-TLP-dkv
JURY DEMAND
[Filed April 1, 2020]
______________________________________
JASON CUNNINGHAM,
Individually and as Adult Natural Son
and Sole Wrongful Death Beneficiary
and next of Kin, Affiant and
Administrator Ad Litem and Personal
Representative for Nancy Jane Lewellyn,
Deceased and Estate of Nancy Jane
Lewellyn,
Plaintiff,
v.

)
)
)
)
)
)
)
)
)
)
)
SHELBY COUNTY,
)
SHERIFF WILLIAM OLDHAM,
)
ROBERT PASCHAL, Individually and
)
in his Official Capacity as a Shelby
)
County Sheriff’s Deputy, and
)
MARVIN WIGGINS, Individually and
)
in his Official Capacity as a Shelby
)
County Sheriff’s Deputy,
)
Defendants.
)
______________________________________ )

App. 13
ORDER DENYING MOTION FOR
SUMMARY JUDGMENT BASED ON
QUALIFIED IMMUNITY
Plaintiff Jason Cunningham sued under 42 U.S.C.
§ 1983 for the alleged wrongful shooting death of Nancy
Jane Lewellyn (“Lewellyn”).1 (ECF No. 1.)
Defendants Robert Paschal (“Paschal”) and Marvin
Wiggins (“Wiggins”) now move for summary judgment.
(ECF No. 83.) The crux of Defendants’ motion is that
they are entitled to qualified immunity. (Id.) Plaintiff
responded and Defendants replied. (ECF No. 104; ECF
No. 108.)
For the reasons below, the Court DENIES
Defendants’ motion for summary judgment.

1

The complaint states that Plaintiff is the adult natural son and
sole wrongful death beneficiary of Lewellyn. (ECF No. 1 at PageID
2.)

App. 14
BACKGROUND
I.

Factual Background2
A. 911 Receives Lewellyn’s Call

Around noon on Friday March 17, 2017, Lewellyn
called 911. (ECF No. 104-2 at PageID 645.)
When the representative of the 911 call center in
Shelby County, Tennessee, picked up, Lewellyn
announced “that she was depressed and suicidal, that
she had a gun, and that she would kill anyone who
came to her residence.” (Id.)
In response to Lewellyn’s phone call, radio dispatch
for the Shelby County Sherriff’s Office (SCSO) provided
information and three deputies—Wiggins, Paschal, and
their colleague, Justin Jayroe (“Jayroe”)—made their
way to Lewellyn’s residence. (Id. at PageID 646.) At the
time, all three deputies knew that Lewellyn “was

2

The Court notes that Defendants have filed video evidence of the
events here. (See ECF No. 83-3.) Equipped with this video
evidence, the Court becomes an active observer and interpreter of
the facts here. See Rudlaff v. Gillispie, 791 F.3d 638, 639 (6th Cir.
2015).
That said, for this section, the Court relies on the parties’ briefs for
a factual account of the shooting that led to Lewellyn’s death. (See
ECF No. 83-2; ECF No. 104-2.) The Court chooses to do so
primarily to spotlight the main factual disputes between the
parties. And it also does so because, under the Court’s
interpretation, the parties have faithfully recounted the events
with help from the video footage. The Court will rely on its own
interpretation of the video footage in later sections of this
order—when it analyzes the merits of Defendants’ qualified
immunity argument.

App. 15
suffering from some type of mental illness and/or
crisis.” (Id.) And radio dispatch advised them “that
[Lewellyn] was ‘saying she [was] armed with what may
be a .45 caliber pistol’” and that she was ready to shoot
herself or anyone who approached her home. (Id.)
(quoting SUV Camera 1 at 12:11:51; SUV Camera 2 at
12:11:51.)
B. The Deputies Arrive at Lewellyn’s
Residence
Minutes after Lewellyn’s phone call, the deputies
started arriving at her residence in their respective
SUVs, although not at the same time. (Id. at PageID
647.) First came Jayroe. (Id.) Then came Paschal. (Id.)
And then came Wiggins. (Id. at PageID 648.)
Lewellyn’s residence is at the end of a cul-de-sac.
Jayroe parked his SUV “with its front facing the front
of Lewellyn’s house.” (Id.) And when Paschal and
Wiggins arrived, they parked behind Jayroe’s SUV
with their blue lights activated.3 (Id.)
Both parties agree that the day was nothing short
of beautiful: “[T]he weather was clear, the sun was
shining.” (Id.) But, despite the beautiful weather, the
parties disagree about how clear and unobstructed the
view of Lewellyn’s home was.
According to Defendants, “there were no
obstructions to visibility or sight due to the weather or
lighting outside the home and the immediate area
3

Plaintiff does not dispute that Paschal had his blue lights
activated, but he leaves open whether he disputes that Wiggins
had his activated. (Id. at PageID 649.)

App. 16
around the home.” (ECF No. 83-2 at PageID 341.) But,
according to Plaintiff, “there were . . . obstructions to
visibility regarding [Lewellyn]’s front door.” (ECF No.
104-2 at PageID 648.) Both parties thus disagree about
what the deputies could see of Lewellyn’s residence
when they parked their cars.
C. Lewellyn Walks Out Her Front Door
About fourteen minutes after noon, Lewellyn
opened her front door and became visible to the
deputies. (Id. at PageID 649.) And from that point
forward, the parties dispute much of the facts that
ensued.
The parties do agree that, “[w]hen Lewellyn first
walked through her door, she was holding an object in
her right hand.” (Id.) But they disagree about how
exactly she held the object.
According to Defendants, Lewellyn held the object
“up and approximately level with her chest, neck, or
face, and pointed in the direction of” Jayroe’s SUV.
(ECF No. 83-2 at PageID 341.) But Plaintiff points to
Wiggins’s deposition testimony to claim that, when
Lewellyn stepped out of her house, Wiggins did not
perceive Lewellyn pointing the object in the deputies’
direction. (ECF No. 104-2 at Page 650 (citing ECF No.
91 at PageID 424–25).) And Plaintiff says that Paschal,
too, testified that he did not see Lewellyn raise the
object as she walked out of her home. (Id.)
The object in Lewellyn’s right hand is also a subject
of contention between the parties. On one hand,
Defendants say that “[t]he object in Lewellyn’s hand
was a silver or nickle [sic] BB gun with a black grip

App. 17
that looked like a semiautomatic handgun . . . . It had
a trigger, trigger guard, and sights on top, but it did
not have an orange or other bright-colored muzzle or
barrel tip.” (ECF No. 83-2 at PageID 341–42.)
But, on the other hand, Plaintiff disputes that he
“has personal knowledge to state the object in
Lewellyn’s hand looked like a semiautomatic handgun.”
(ECF No. 104-2 at PageID 650.) He also says that
“Paschal and Wiggins initially saw the BB gun when
Lewellyn was on the porch coming out of her home,”
presumably putting into question whether the deputies
saw that Lewellyn was holding a gun-shaped object.
(Id. at PageID 651.) Plaintiff only agrees, based on
pictures taken after the incident, that the object was a
BB gun. (Id. at PageID 650–51.)
D. Lewellyn Walks Toward Her Driveway
After Lewellyn opened her front door and became
visible to the deputies, she immediately started
walking to her right, toward her driveway. (Id. at
PageID 651.)
At first, while walking toward her driveway,
Lewellyn did not have her gun raised. (Id.) Both
parties agree on this fact. (Id.) But the parties have
different interpretations of what occurred moments
later.
Defendants say that, “while still walking, Lewellyn
again began to raise the handgun up, pointed outward.”
(ECF No. 83-2 at PageID 342.) But Plaintiff claims that
Lewellyn never aimed the BB gun at the deputies.
(ECF No. 104-2 at PageID 652.) He also claims, in the
alternative, that Lewellyn “was moving towards the

App. 18
parked car [in her driveway] to surrender the bb gun.”
(Id.)
Then, at the moment when Lewellyn began walking
toward her driveway, according to Defendants, one
deputy yelled: “Hey, ma’am!” (ECF No. 83-2 at PageID
343.) But Plaintiff states that “[t]he voice is heard but
inaudible and not understandable.” (ECF No. 104-2 at
PageID 653.) Plaintiff also disputes that the “voice said
‘put the gun down, Sheriff or drop the gun’ or anything
similar to that.” (Id.)
E. The Deputies Shoot Lewellyn
Right when the deputy yelled, Paschal fired the first
shot toward Lewellyn. (Id.) After the shot, which
Plaintiff claims hit Lewellyn in the back, she
“continued to walk towards her parked car.” (Id.) And
then came another bullet. (Id.)
By this point, Wiggins had arrived on the scene.
After the first two shots, “Wiggins ran to cover behind
the back of his parked vehicle . . . , turned around, and
began firing.” (Id.)
Defendants claim Wiggins was “running away from
Lewellyn” when he took cover behind his SUV (ECF
No. 83-2 at PageID 342), but Plaintiff disputes that
Wiggins ever mentioned this fact (ECF No. 104-2 at
PageID 654.).
Allegedly hit by multiple shots, “Lewellyn leaned
against her car” and placed the BB gun on its hood.
(Id.) Defendants argue that, “[o]nce on the hood, the
pistol was not visible from” the perspective of Jayroe’s
SUV. (ECF No. 83-2 at PageID 342.) But Plaintiff

App. 19
disputes this allegation (ECF No. 104-2 at PageID 654),
presumably arguing that Lewellyn’s BB gun was
sitting on the hood of the car, visible to the deputies.
According to Defendants, “[n]either Wiggins nor
Paschal realized that Lewellyn discarded her pistol
until after they stopped shooting and approached her.”
(ECF No. 83-2 at PageID 343.) But Plaintiff alleges
that “Lewellyn clearly held out her two arms, with
palms and/or hands open, after surrendering the bb
gun on the hood of the car and Defendants continued to
shoot her multiple times as she fell and while she lay
dying on the ground.” (ECF No. 104-2 at PageID 654.)
Defendants add that “[n]either Wiggins nor Paschal
realized, during the volley (of shots), that Lewellyn
turned at any point to expose her back to the officers.”
(ECF No. 83-2 at PageID 343.) But Plaintiff disputes
this allegation (ECF No. 104-2 at PageID 655), citing
Lewellyn’s autopsy that shows evidence of four shots in
Lewellyn’s back. (ECF No. 95 at PageID 522.)
F. Lewellyn Is Down
Defendants allege that, once shot multiple times,
Lewellyn fell to the ground and “continued to shift her
position.” (ECF No. 83-2 at PageID 343.) Disputing this
interpretation, Plaintiff claims that “Lewellyn laid
bleeding and dying . . . while Defendants continued to
shoot multiple times.” (ECF No. 104-2 at PageID 655.)
But both parties agree that the deputies shot at
Lewellyn 10 times, with eight of those bullets striking
her. (Id. at PageID 655–56.) And only after the 10 shots
did the deputies ask Lewellyn to put down her gun. (Id.
at PageID 656.)

App. 20
Finally, once Lewellyn was lying on the ground, “the
deputies [approached] Lewellyn, yelling ‘let me see
your hands!’ and ‘hands up!’” (Id. at PageID 657.) The
deputies then “began trying to render medical aid.”
(Id.)
II.

Procedural Background

Plaintiff sued officers Wiggins and Paschal under 42
U.S.C. § 1983 for the alleged wrongful shooting death
of Lewellyn. (ECF No. 1.) He also sued Sheriff William
Oldham (“Oldham”) and Shelby County, Tennessee,
under the same claim.4(Id.)
As to Wiggins and Paschal, Plaintiff claims that
they “deprived [Lewellyn] from her Constitutional right
to be free from unreasonable and excessive deadly force
and unreasonable seizure through means intentionally
applied under the Fourth Amendment of the United
States Constitution.” (Id. at PageID 17.) Plaintiff
claims that, because of Wiggins and Paschal’s alleged
constitutional violation, he is entitled to “compensatory
damages available under the law including but not
limited to extreme pain and suffering of [Lewellyn],
funeral expenses, medical expenses, pecuniary value of
the life of [Lewellyn] and the loss of society and
companionship and consortium for Plaintiff.” (Id. at
PageID 19.)

4

The Court dismissed without prejudice Plaintiff’s claim against
Oldham for failure to state a claim under Fed. R. Civ. P. 12(b)(6).
(See ECF No. 48.) And as of this order, Shelby County, Tennessee,
remains a defendant in this lawsuit and has not moved for a
dismissal.

App. 21
Wiggins and Paschal have now moved for summary
judgment. (ECF No. 83.) They argue that they are
entitled to qualified immunity and provide two
interrelated reasons why this Court should find in their
favor.5 (ECF No. 83-1.)
First, they say that “Wiggins and Paschal are
entitled to qualified immunity because, at the time
[Lewellyn] walked out of her house with a handgun,
their actions were reasonable under the Sixth Circuit’s
segmenting approach.” (Id. at PageID 318.) And
second, they say that “Wiggins and Paschal did not
violate clearly established law.” (Id. at PageID 319.)
In the next sections, the Court will address
Defendants’ qualified immunity argument. And for the
reasons detailed below, the Court DENIES
Defendants’ motion for summary judgment.
LEGAL STANDARD
I.

Summary Judgment Standard

The Court begins its analysis with the rules and
cases about the summary judgment standard.
A party is entitled to summary judgment “if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
5

The Court entered a limited scheduling order allowing Plaintiff
to depose Paschal, Wiggins, and the medical examiner who
conducted Lewellyn’s autopsy. (See ECF No. 68.) The Court found
“it appropriate and necessary to allow Plaintiff to conduct limited
discovery on the issue of qualified immunity before responding to”
Defendants’ motion for summary judgment. (Id. at PageID 286)
(citing Crawford-El v. Britton, 523 U.S. 574, 593 n.14 (1998)).

App. 22
judgment as a matter of law.” Fed. R. Civ. P. 56(a). “A
fact is ‘material’ for purposes of summary judgment if
proof of that fact would establish or refute an essential
element of the cause of action or defense.” Bruederle v.
Louisville Metro Gov’t, 687 F.3d 771, 776 (6th Cir.
2012).
“In considering a motion for summary judgment,
[the] court construes all reasonable inferences in favor
of the nonmoving party.” Robertson v. Lucas, 753 F.3d
606, 614 (6th Cir. 2014) (citing Matsushita Elec. Indus.
Co. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986)).
“The moving party bears the initial burden of
demonstrating the absence of any genuine issue of
material fact.” Mosholder v. Barnhardt, 679 F.3d 443,
448 (6th Cir. 2012) (citing Celotex Corp. v. Catrett, 477
U.S. 317, 323 (1986)).
“Once the moving party satisfies its initial burden,
the burden shifts to the nonmoving party to set forth
specific facts showing a triable issue of material fact.”
Mosholder, 679 F.3d at 448-49; see also Fed. R. Civ. P.
56(e); Matsushita, 475 U.S. at 587. If “the non-moving
party fails to make a sufficient showing of an essential
element of his case on which he bears the burden of
proof, the moving parties are entitled to judgment as a
matter of law and summary judgment is proper.”
Martinez v. Cracker Barrel Old Country Store, Inc., 703
F.3d 911, 914 (6th Cir. 2013) (quoting Chapman v.
UAW Local 1005, 670 F.3d 677, 680 (6th Cir. 2012) (en
banc)) (internal quotation marks omitted); see also
Kalich v. AT & T Mobility, LLC, 679 F.3d 464, 469 (6th
Cir. 2012).

App. 23
The parties must cite “to particular parts of
materials in the record” to “show that a fact is, or is
not, genuinely disputed,” “showing that the materials
cited do not establish the absence or presence of a
genuine dispute” or showing “that an adverse party
cannot produce admissible evidence to support the
fact.” Bruederle, 687 F.3d at 776 (alterations in
original) (quoting Fed. R. Civ. P. 56(c)(1)); see also
Mosholder, 679 F.3d at 448 (“To support its motion, the
moving party may show ‘that there is an absence of
evidence to support the nonmoving party’s case.’”
(quoting Celotex, 477 U.S. at 325)).
“Credibility determinations, the weighing of the
evidence, and the drawing of legitimate inferences from
the facts are jury functions, not those of a judge[.]”
Martinez, 703 F.3d at 914 (alteration in original)
(quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
255 (1986)). “The court need consider only the cited
materials, but it may consider other materials in the
record.” Fed. R. Civ. P. 56(c)(3). “[T]he district court
has no ‘duty to search the entire record to establish
that it is bereft of a genuine issue of material fact.’”
Pharos Capital Partners, L.P. v. Deloitte & Touche, 535
F. App’x 522, 523 (6th Cir. 2013) (per curiam) (quoting
Tucker v. Tennessee, 539 F.3d 526, 531 (6th Cir. 2008),
abrogation recognized by Anderson v. City of Blue Ash,
798 F.3d 338 (6th Cir. 2015)).
Ultimately, the “question is whether ‘the evidence
presents a sufficient disagreement to require
submission to a [fact finder] or whether it is so
one-sided that one party must prevail as a matter of
law.’” Johnson v. Memphis Light Gas & Water Div., 777

App. 24
F.3d 838, 843 (6th Cir. 2015) (quoting Liberty Lobby,
477 U.S. at 251–52). Summary judgment “‘shall be
entered’ against the nonmoving party unless affidavits
or other evidence ‘set forth specific facts showing that
there is a genuine issue for trial.’” Rachells v. Cingular
Wireless Employee Services, LLC, No. 1:08 CV 02815,
2012 WL 3648835, at *2 (N.D. Ohio Aug. 23, 2012)
(quoting Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871,
884 (1990)).
“[A] mere ‘scintilla’ of evidence in support of the
non-moving party’s position is insufficient to defeat
summary judgment; rather, the non-moving party must
present evidence upon which a reasonable jury could
find in her favor.” Tingle v. Arbors at Hilliard, 692 F.3d
523, 529 (6th Cir. 2012) (quoting Liberty Lobby, 477
U.S. at 251). “[T]o withstand a motion for summary
judgment, the party opposing the motion must present
‘affirmative evidence’ to support his/her position.”
Mitchell v. Toledo Hosp., 964 F.2d 577, 584 (6th Cir.
1992) (citing Liberty Lobby, 477 U.S. at 247–254; Street
v. J.C. Bradford & Co., 886 F.2d 1472, 1479 (6th Cir.
1989)). “[C]onclusory assertions, unsupported by
specific facts made in affidavits opposing a motion for
summary judgment, are not sufficient to defeat a
motion for summary judgment.” Rachells, 2012 WL
3648835, at *2 (quoting Thomas v. Christ Hosp. and
Med. Ctr., 328 F.3d 890, 894 (7th Cir. 2003)).
Statements in affidavits that are “nothing more than
rumors, conclusory allegations and subjective beliefs”
are insufficient. See Mitchell, 964 F.2d at 584–85.

App. 25
II.

Video Evidence

As mentioned above, the Court ordinarily must view
facts in the light most favorable to the nonmoving
party when deciding a motion for summary judgment.
See Robertson, 753 F.3d at 614. But an “added wrinkle”
exists when the record includes “videotape[s] capturing
the events in question.” Scott v. Harris, 550 U.S. 372,
378 (2007).
In cases like the one here, “where the police
dash-cam video[s] . . . depict[] all of the genuinely
disputed facts,” Standifer v. Lacon, 587 Fed. App’x.
919, 920 (6th Cir. 2014), the Court must view “the facts
in the light depicted by the videotape[s].” Scott, 550
U.S. at 381. That said, when “facts shown in videos
can be interpreted in multiple ways or if videos do not
show all relevant facts, such facts should be viewed in
the light most favorable to the non-moving party.”
Latits v. Phillips, 878 F.3d 541, 547 (6th Cir. 2017)
(citing Godawa v. Byrd, 798 F.3d 457, 463 (6th Cir.
2015)).
ANALYSIS
Defendants argue first that they did not violate
Plaintiff’s Fourth Amendment rights because their
actions were reasonable under the circumstances. (ECF
No. 83-1 at PageID 318.) And even if they did,
Defendants argue that they are entitled to qualified
immunity because “they did not violate clearly
established law.” (Id. at PageID 318.) Plaintiff
disagrees on both counts. (See ECF No. 104.)
The Sixth Circuit has established a three-step
analysis to determine whether qualified immunity

App. 26
applies. First, assess whether the facts viewed in the
light most favorable to the nonmoving party show that
a constitutional violation has occurred. Second,
consider whether the alleged violation implicated a
clearly established constitutional right of which a
reasonable person would have known. And third,
determine whether Plaintiff has put forth enough
evidence “to indicate that what the official allegedly did
was objectively unreasonable in light of the clearly
established constitutional rights.” Feathers v. Aey, 319
F.3d 843, 848 (6th Cir. 2003) (quoting Williams v.
Mehra, 186 F.3d 685, 691 (6th Cir.1999) (en banc)).
Under this standard, the first issue that this Court
will decide is thus whether the facts viewed in the light
depicted by the video footage or in the light most
favorable to Plaintiff show that Defendants committed
a constitutional violation. The Court assesses whether
the video footage or Plaintiff’s version of the facts when
the video footage is unclear shows that Defendants
violated Lewellyn’s Fourth Amendment rights. The
Court takes on this issue in the next section.
I.

The Fourth Amendment

To recover damages under § 1983, a plaintiff must
allege that a person acting under color of state law
violated a right secured by the Constitution and laws
of the United States. West v. Atkins, 487 U.S. 42, 42
(1988). Plaintiff here asserts a Fourth Amendment
excessive force claim against Defendants. (See ECF No.
1.) And there is no dispute that, at the time of
Lewellyn’s seizure, Defendants were “acting under
color of state law.” West, 487 U.S. at 42.

App. 27
Courts analyze excessive force claims under the
Fourth Amendment’s reasonableness standard. See
Graham v. Connor, 490 U.S. 386, 395 (1989).
“[W]hether the force used to effect a particular
seizure is reasonable . . . requires a careful balancing of
the nature and quality of the intrusion on the
individual’s Fourth Amendment interests against the
countervailing governmental interests at stake.” Id. at
396 (quoting Tennessee v. Garner, 471 U.S. 1, 8 (1985))
(internal quotation marks omitted). And “[d]eadly force
is objectively reasonable when an officer ‘has probable
cause to believe that the suspect poses a significant
threat of death or serious physical injury to the officer
or others.’” Thomas v. City of Columbus, Ohio, 854 F.3d
361, 365 (6th Cir. 2017) (quoting Garner, 471 U.S. at
3).
Although the Court assesses reasonableness based
on the totality of the circumstances, three factors guide
the analysis: “(1) the severity of the crime at issue;
(2) whether the suspect poses an immediate threat to
the safety of the officer or others; and (3) whether the
suspect is actively resisting arrest or attempting to
evade arrest by flight.” Bouggess v. Mattingly, 482 F.3d
886, 889 (6th Cir. 2007) (citing Graham, 490 U.S. at
396).
This test is objective, “to be ‘judged from the
perspective of a reasonable officer on the scene, rather
than with the 20/20 vision of hindsight.’” Sova v. City
of Mt. Pleasant, 142 F.3d 898 at 903 (6th Cir. 1998)
(quoting Graham, 490 U.S. at 396). It must make
“allowance for the fact that police officers are often
forced to make split-second judgments—in

App. 28
circumstances that are tense, uncertain, and rapidly
evolving—about the amount of force that is necessary
in a particular situation.” Graham, 490 U.S. at 397.
An officer’s intent does not affect the Court’s
analysis. So, if an officer has evil motive, that motive
will not turn an objectively reasonable use of force into
a Fourth Amendment violation. Graham 490 U.S. at
397 (citing Scott v. United States, 436 U.S. 128, 138
(1978)). Likewise, an officer’s good intentions will not
turn objectively unreasonable use of force into a
constitutional act. Id.
“In this circuit, we consider the officer’s
reasonableness under the circumstances he faced at the
time he decided to use force.” Thomas, 854 F.3d at 365
(citing Livermore ex rel Rohm v. Lubelan, 476 F.3d 397,
406 (6th Cir. 2007)) (emphasizing the use of the
so-called segmented analysis in the Sixth Circuit).
“Even if an officer approaches a scene recklessly, this
will not necessarily render a later decision to protect
himself unreasonable.” Id. (citing Chappell v. City of
Cleveland, 585 F.3d 901, 915–16 (6th Cir. 2009)).
II.

Whether the
Unreasonable

Deputies’

Seizure

Was

To begin with, the Court notes that Defendants do
not argue that the first and third factors of the
so-called Graham factors apply here. Nor could they.
The parties neither allege that Lewellyn was
committing a crime—the first factor—nor that the
deputies sought to arrest her— the third factor.
And so the Court will focus on the other
factor—whether Lewellyn, at the time of the shooting,

App. 29
“pose[d] an immediate threat to the safety of the
officer[s] or others.” Graham, 490 U.S. at 395. Said
otherwise, the Court should answer whether Paschal
and Wiggins had “probable cause to believe that
[Lewellyn] posed an imminent danger of serious
physical harm to [them] or to others.”6 Garner, 471
6

The Court notes that it focuses its analysis here to whether
Lewellyn posed an immediate threat to the deputies, not to
anybody else in the vicinity. See Graham, 490 U.S. at 395. Wiggins
testified that he “started firing [his] weapon” when Lewellyn had
reached her driveway and allegedly “fac[ed]” the deputies. (ECF
No. 91 at PageID 424.) Similarly, Paschal testified that he shot
Lewellyn when she allegedly reached the driveway, “saw” the
deputies, and “raise[d] her gun” in their direction. (ECF No. 92-1
at PageID 462–63.) Paschal also claimed that Lewellyn was a
danger to him, Jayroe, and “all the other citizens in that cove”
when he fired his weapon. (Id. at PageID 464.) Hypothetically,
Paschal’s statement about others may be right but there is no
evidence that he is.
At this stage in the lawsuit, the Court must deal in evidence—not
speculation or hypotheticals—when deciding whether the deputies’
use of lethal force was reasonable under the Fourth Amendment.
See Bruederle, 687 F.3d at 776. And the Court finds no evidence
that suggests that people other than Lewellyn and the deputies
were present when the shooting occurred.
For one, the parties do not argue in their briefs that Lewellyn
posed a threat to anybody else than the deputies. (See ECF No. 83;
ECF No. 104.) What is more, neither the paper record nor the
video footage shows that anybody other than the deputies and
Lewellyn was present at the time of the incident. In fact, starting
at the moment when the deputies enter Lewellyn’s neighborhood,
the video footage captures the presence of only four people:
Lewellyn, Jayroe, Paschal, and Wiggins. (See ECF No. 83-3.)
More to this point, Wiggins did not say during his deposition that
people other than the deputies were at risk of danger when
Lewellyn walked out of her home. (See ECF No. 83-6; ECF No. 91;

App. 30
U.S. at 3. The Court will evaluate this question
separately for each deputy.

ECF No. 91-1.) And aside from Paschal’s statement about other
potential people in the cove (ECF No. 92-1 at PageID 464), his
deposition testimony largely tracks Wiggins’s. He focuses on
Lewellyn’s alleged threat to the deputies, not anyone else. (See
ECF No. 83-7; ECF No. 92; ECF No. 92-1; ECF No. 92-2.)
Thus, although the parties do not argue in their briefs that
Lewellyn posed an imminent danger of serious physical harm to
other, unknown people in the cove, the Court finds that raising
this argument would, at best for Defendants, raise a genuine issue
of material fact. The record is replete with evidence that shows
that, in fact, only Lewellyn and the deputies were present at the
time of the shooting. At worst, however, this argument would have
no proverbial leg to stand on—there is simply nothing in the record
that suggests the presence of anybody else than Lewellyn and the
deputies. See also Adams v. Blount Cty., Tennessee, 946 F.3d 940,
949 (6th Cir. 2020) (“[I]n cases where the witness most likely to
contradict the officer’s testimony is dead, ‘the [C]ourt may not
simply accept what may be a self-serving account by the police
officer. It must look at the circumstantial evidence that, if believed,
would tend to discredit the police officer’s story.”) (quoting
Jefferson v. Lewis, 594 F.3d 454, 462 (6th Cir. 2010).
To speculate about the alleged threat posed by Lewellyn—and
particularly the imminence of her alleged threat—beyond the
evidence presented would lead the Court far astray from the
relevant, more narrow question at stake here. Namely, whether
Defendants had probable cause to believe that Lewellyn posed an
imminent threat of serious physical threat to the deputies. See
Garner, U.S. 471 at 3. This more narrow and relevant question
thus guides the Court’s analysis throughout this order.

App. 31
A. Paschal
1. Before Paschal Arrives on the Scene
The radio dispatch had informed Paschal of two key
facts before he arrived at Lewellyn’s home.
First, it told him that Lewellyn was in mental
health distress. (ECF No. 104-2 at PageID 645.) He,
and the other two deputies, knew that Lewellyn had
told the 911 call center that she was depressed and
suicidal.7 (Id.) And second, Paschal knew she had told
7

The Court notes that Defendants characterize Lewellyn’s mental
health condition as “making her actions unpredictable.” (ECF No.
83-2 at PageID 340.) But Plaintiff disputes this characterization
“for purposes of summary judgment statement . . . as there is not
[sic] citation to the record that contains that statement.” (ECF No.
104-2 at PageID 646.)
Because Defendants’ characterization that Lewellyn was
unpredictable lacks support in the record, the Court declines to
infer that Lewellyn’s mental health condition indeed made her
unpredictable—and thus more or less of a threat for Defendants.
What remains undisputed here is that Lewellyn was in mental
health distress. She made threats about future conduct and
reported that she was suicidal.
The Court also notes that “unpredictable” in this context could
mean many things. But the Court assumes that Defendants mean
it in a way that suggests that Lewellyn posed more of a threat
than she would have had she not suffered from a mental health
condition. To assume otherwise would, after all, contradict
Defendants’ position that Lewellyn posed a danger to the deputies.
This suggestion, if left unaddressed, could have implications that
the Court finds troubling. It could propagate an ill-explored—and
perhaps prejudiced—understanding of the effects of mental illness
on later violent behavior. This issue, if unsupported by evidence,
is one best left to mental health experts, not courts. The Court

App. 32
the dispatch that she had a gun, and that she would
kill any person who came to her home. (Id.) While on
their way to Lewellyn’s home, the dispatch explained to
the deputies that Lewellyn had in her possession “what
she [thought] may be a .45 caliber pistol.” (SUV
Camera 1 at 12:11:58.)
With these facts in mind, Paschal arrived at
Lewellyn’s home aware of the risks at hand. This
explains why, shortly after his arrival, but before
Lewellyn came out of her house, Paschal drew his gun
and appeared to communicate with Jayroe about
Lewellyn’s status. (SUV Camera 2 at 12:13:44.) The
video camera attached to Paschal’s SUV records one of
the deputies telling the other that Lewellyn was
“possibly armed with a .45.” (Id. at 12:13:40.) And
Paschal also appeared to communicate by radio with
Wiggins—who was on his way to the scene—about
Lewellyn. (Id. at 12:13:45.)
2. Lewellyn Steps Out of Her Home
When Lewellyn first becomes visible from the
perspective of the video camera attached to Jayroe’s
SUV, Jayroe and Paschal stood in the street. (SUV
Camera 1 at 12:14:08.)
According to Paschal’s deposition testimony,
Lewellyn was 60 feet away, “give or take,” from the
deputies when she walked out of her house. (ECF No.
92-2 at PageID 488.) And the deputies’ SUVs, as well

thus stresses that the evidence, or lack thereof, about Lewellyn’s
mental health condition does not assist in the Court’s Fourth
Amendment analysis.

App. 33
as both deputies, were slightly to the right of
Lewellyn’s front door.8 (SUV Camera 1 at 12:14:08; see
also ECF No. 93.)
Defendants argue that, “[w]hen Lewellyn first
walked through her door, she was holding an object in
her right hand . . . and pointed in the direction of
[Jayroe’s SUV].” (ECF No. 83-2 at PageID 341.) They
then say that, because “Jayroe and Paschal are
standing at the rear of [Jayroe’s SUV] at that time, . . .
Lewellyn points the gun in their direction.” (Id.)
Plaintiff does not dispute that “Lewellyn was
holding an object in her right hand when she came out
of the door.” (ECF No. 104-2 at PageID 649.) But he
disputes that “Lewellyn pointed in the direction of”
Jayroe’s SUV. (Id.) He also disputes that the deputies
ever saw Lewellyn point her gun in their direction. (Id.
at PageID 649–50.)
Two fact issues arise from this tension between the
parties’ positions: (1) Whether Lewellyn pointed her
gun in the direction of Jayroe’s SUV when she stepped
out of her home; and (2) whether the deputies perceived
her doing so.
The Court finds that reconciling these positions is
important because “whether the use of deadly force . . .
depends primarily on objective assessment of the
danger a suspect poses . . . from the perspective of a
reasonable officer in the defendant’s position.”
Bouggess, 482 F.3d at 889 (emphasis added). The Court
8

The Court adopts the deputies’ point of view when describing the
facts here, and it continues to do so for the rest of this order.

App. 34
must thus focus its Fourth Amendment analysis on
what Paschal perceived when Lewellyn stepped out of
her home. And, as the Court will explain, the record
does not unequivocally show that Paschal saw
Lewellyn raise her gun when she stepped out of her
house.
As to the first issue, the video camera attached to
Jayroe’s SUV appears to show Lewellyn walking out of
her house with the gun in her right hand. (SUV
Camera 1 at 12:14:08.) The video footage also appears
to show that Lewellyn raised the gun in the SUV’s
general direction. (Id.) Seeing this movement is also
difficult because in front of Lewellyn’s house—between
the camera and Lewellyn—is a tree the limbs of which
partially obscure the view of Lewellyn. (Id.)
But, as to the second issue, the Court cannot infer
that, just because the video footage shows Lewellyn
raising her gun in the direction of Jayroe’s SUV,
Paschal saw her doing so. Latits, 878 F.3d at 547 (“To
the extent that facts shown in videos can be interpreted
in multiple ways or if videos do not show all relevant
facts, such facts should be viewed in the light most
favorable to the non-moving party.”) Neither deputy on
the scene at that time fired at Lewellyn when she first
walked out of her house. There is thus a question of
fact whether the video footage shows what the deputies
saw when Lewellyn first stepped out of her home.
The deposition testimony of both Paschal and
Wiggins also supports the Court’s reluctance to infer
too much on this point from the video footage. Wiggins
stated that Lewellyn had not pointed her gun toward
any of the deputies up until the moment when she

App. 35
reached her driveway. (ECF No. 91 at PageID 424–25.)
And Paschal testified that he “deemed [Lewellyn] to be
a threat of death or serious bodily injury” when he fired
the two first shots. (ECF No. 83-7 at PageID 375.) But
Paschal did not shoot Lewellyn when she first emerged
from her home. By the time Paschal fired those two
shots, Lewellyn had walked from her front door along
the walkway to her driveway. (SUV Camera 1 at
12:14:14.)
Based on the above analysis, the Court makes two
findings. First, the Court finds that the video footage
does show that Lewellyn stepped out of her home with
her BB gun in her hand. And second, the Court finds
that a genuine dispute of material fact exists about
whether the deputies saw Lewellyn’s gun at that time
or what, if anything, she did with it.
The Court emphasizes that, because the material
fact here is not whether Lewellyn stepped out of her
home with her gun pointed toward Jayroe’s SUV, but
whether Paschal saw her doing so, it cannot find that
Paschal perceived Lewellyn as an “imminent danger of
serious physical harm to [them] or to others” at that
moment. Garner, 471 U.S. at 3; see Mitchell, 964 F.2d
at 584 (explaining that the Court must view facts in
the light most favorable to the nonmoving party when
genuine disputes of material facts exist). The video is
unclear about whether the deputies perceived that
Lewellyn pointed her gun in their direction as she
walked through the front door. And the deputies’
testimony strongly suggests that the deputies did not
see her do so. This fact issue should thus “be viewed in

App. 36
the light most favorable to the non-moving party.”
Latits, 878 F.3d at 547.
To find legitimate Paschal’s use of force, the Court
must thus focus its analysis on whether Lewellyn acted
in threatening ways between when she stepped out of
her home to when Paschal fired his gun and struck her
with his first bullet. The Court proceeds with this
analysis in the next section.
3. Paschal Shoots Lewellyn
a. Undisputed Facts About Paschal’s
Shooting
The Court finds necessary, before analyzing the
genuine disputes of material fact between the parties,
to highlight two undisputed facts that relate to
Paschal’s alleged liability under the Fourth
Amendment. The first relates to the time that expired
between the moment Lewellyn stepped out of her home
and Paschal’s first shot. And the second relates to the
lack of warning given by the deputies.
i. The Passage of Time Before the
Shot
Lewellyn took no more than 10 steps outside her
house—the Court counts seven, to be exact—before
Paschal fired his first shot. (SUV Camera 1 at 12:14:08

App. 37
to 12:14:12; see also Figure 19.) These steps occurred in
no more than four seconds. (Id.)
More troublesome is that Lewellyn took five of these
steps, not in the deputies’ direction, but away from the
deputies, toward the car parked in the driveway. (Id.)
The Court must also note that Lewellyn’s steps
appeared confused. (Id.) In the Court’s view, neither
her demeanor nor her body language shows that she
stepped out of her home with a clear purpose in mind.

Figure 1. SUV Camera 1 at 12:14:11.
9

The Court generated all Figures by taking screenshots of the
video footage provided by Defendants. (See ECF No. 83-3.) The
software allowing the Court to watch the video footage included a
screenshot function, and the Court did not crop any of the included
Figures.
The Court also stresses that it spent much time pinpointing
through screenshots moments that it deemed relevant to this
order. But the Court also wishes to emphasize that watching the
video of events from start to finish, without pause, reveals how
quickly the incident occurred. But it also reveals that the Figures
in this order do not tell the full story; they are mere moments in a
stream of events that provide context for the reader.

App. 38
When Paschal fired, Lewellyn did not have her body
angled toward the deputies, nor did she have her gun
pointed in their direction. (See Figure 2.) The Court
even questions whether Lewellyn knew where Jayroe
and Paschal were when the first bullet struck her.
Based on the video footage, nothing appears to show
that she knew the deputies’ positioning. What is more,
there is a tree between Lewellyn’s front door and the
street where the deputies’ vehicles were located, which
presumably would have hindered Lewellyn’s ability to
see the deputies.
That said, the video shows Lewellyn extending her
right arm with the gun either toward her car in the
driveway or slightly to its left as she walked toward her
car, away from the deputies, when Paschal first shot
her. (Id. at 12:14:12.) And, in this way, Lewellyn’s gun
is about at a 90-degree angle away from Paschal, who
still stands upright to the right of Jayroe’s SUV. (See
Figure 3 (occurring simultaneously as Figure 2); see
also ECF No. 93; ECF No. 93-1.) In other words,
Paschal had Jayroe’s SUV between him and Lewellyn
when he fired at her.

App. 39

Figure 2. SUV Camera 1 at 12:14:12.

Figure 3. SUV Camera 2 at 12:14:12.
ii. The Lack of Warning Before
the Shot
Paschal also did not wait for Lewellyn to respond to
a warning before shooting her. See Garner, 471 U.S. at
11–12 (“[I]f the suspect threatens the officer with a
weapon . . . , deadly force may be used if necessary to
prevent escape, and if, where feasible, some warning

App. 40
has been given.”) (emphasis added). Paschal pulled the
trigger at the same time as one of the deputies— most
likely Jayroe10—shouted “Hey—ma’am!” or “Yo—
ma’am!” (SUV Camera 1 at 12:14:11 at 12:14:12.) The
video footage captures Paschal shooting Lewellyn when
the word “ma’am” echoes. (Id. at 12:14:12.)
This fact raises questions about whether a warning
was feasible, and whether doing so was the reasonable
action to take under the circumstances. Garner, 471
U.S. at 11–12.
At a minimum, the Court finds that Paschal could
have waited a second—even a fraction of a
second—after the shouting to gauge her response. The
Court also finds rather implausible that a warning was
unfeasible at the time of Lewellyn’s appearance. If
anything, one of the deputies did shout at Lewellyn,
and he waited to do so until her foot was on her
driveway. (SUV Camera 1 at 12:14:11.)

10

During an interview with a detective of Shelby County’s Bureau
of Professional Standards and Integrity (“BOPSI”), Paschal
explained that he did not remember giving Lewellyn a warning.
(ECF No. 88 at 402) (“I don’t remember giving verbal
commands . . . . [T]here was some yelling but I don’t remember
what was said.”) This statement raises the question about whether
Paschal even considered giving Lewellyn a warning before taking
aim and shooting. And Jayroe appears to have told the BOPSI
detective during his own interview that he was responsible for the
shouting, but he left doubt about this fact. (ECF No. 90 at PageID
412) (“[S]omebody did [give verbal commands to Lewellyn] and, uh,
I want to say I did as well but I know I didn’t say it until she was
already on the ground. Um, but I heard somebody else say it but
I don’t know at what point they said it.”)

App. 41
The Court also finds striking that the deputies did
not give Lewellyn a warning when she first walked out
of her home and, instead, waited many seconds before
doing so. The Court acknowledges that it must make
“allowance for the fact that police officers are often
forced to make split-second judgments—in
circumstances that are tense, uncertain, and rapidly
evolving.” Graham, 490 U.S. at 397. But the Supreme
Court emphasized more than 30 years ago the
importance of warnings when feasible before using
lethal force. See Garner, 471 U.S. at 11–12. The Court
thus cannot excuse the deputies’ omission by inferring
that the circumstances were too “tense, uncertain, and
rapidly evolving” to undercut foundational principles of
law enforcement conduct. Graham, 490 U.S. at 397.
The Court thus finds, much like the Sixth Circuit
did for Defendant Mattingly in Bouggess, that Paschal
“never warned [Lewellyn] that he might shoot, as
required by Garner when feasible under the
circumstances.” 482 F.3d at 892 (6th Cir. 2007) (citing
Craighead v. Lee, 399 F.3d 954, 962 (8th Cir. 2005)). As
the Court will explain below, this finding is one factor
among many that the Court weighs when assessing
whether Paschal violated Lewellyn’s Fourth
Amendment rights.
b. Factual Disputes Over Paschal’s
Shooting
Based on the discussion above, the Court can
highlight two undisputed facts that bear on Paschal’s
liability under the Fourth Amendment. First, he shot
Lewellyn as she walked toward the car in her driveway
and thus farther away from the deputies. And second,

App. 42
Paschal did not wait for Lewellyn to respond to the
deputy’s shout before pulling the trigger.
Having made these findings, the Court now turns to
the record to assess factual disputes about the danger
posed by Lewellyn. The Court finds that genuine
disputes of material facts exist about the danger posed
by Lewellyn when Paschal used lethal force against
her.
Defendants say that, while walking toward her
driveway, “Lewellyn again began to raise the handgun
up, pointed outward,” and that Paschal perceived her
doing so. (ECF No. 83-2 at PageID 342.) To this effect,
Defendants cite Paschal’s deposition, during which he
testified the following: “From what I remember—I don’t
remember exact [sic]—from that day perceiving that
day on March 17th—I don’t remember exactly how it
was. I remember her turning, lifting the gun. And then
I start firing.” (ECF No. 83-7 at PageID 375–76)
(emphasis added.) He also answered in the affirmative
when asked “whether [Lewellyn] ever point[ed] the
gun” at him. (ECF No. 92-1 at PageID 464.)
Plaintiff disputes these statements. (See ECF No.
104-2 at PageID 652.) He says that “Lewellyn never
pointed the bb gun at Defendants Wiggins or Paschal
or Deputy Jayroe or any other person in the vicinity
that date.” (Id.)
The Court finds that the video footage supports
Plaintiff’s position. The picture below (Figure 4) shows
Lewellyn at the exact moment when Paschal pulled the
trigger for the first time:

App. 43

Figure 4. SUV Camera 1 at 12:14:12.
Based on the video footage, the Court finds that a
genuine dispute of material fact exists about whether
Lewellyn pointed her gun in the deputies’ direction
when she reached the driveway. Lewellyn was facing
away from the deputies when Paschal first fired. (See
Figure 3; Figure 4.) Plus, Paschal stood several dozen
feet to the right of Lewellyn, partially hidden by
Jayroe’s SUV. (See Figure 3.)
In fact, when Lewellyn’s body was the closest to
facing the deputies (see Figure 5), Paschal had already
fired his weapon for the first time. Lewellyn’s
movement captured in Figure 5 could thus be a jerk in
response to Paschal’s shot, which struck her in the
back.

App. 44

Figure 5. SUV Camera 1 at 12:14:12.
“To the extent that facts shown in videos can be
interpreted in multiple ways,” which the Court finds is
the case here, “such facts should be viewed in the light
most favorable to the non-moving party.” Latits, 878
F.3d at 541. The Court must thus find that Lewellyn
did not point her gun at Paschal when she reached her
driveway. To find otherwise would contradict the
standard of review under which the Court must view
the facts here.
Plaintiff also says that “Paschal fired his
weapon . . . , causing Lewellyn’s arm and body to
move.” (ECF No. 104-2 at PageID 652.) The Court
assumes that this assertion responds to Paschal’s
deposition testimony, in which he said that he saw
Lewellyn “turning” before he shot her. (See ECF No. 88
at PageID 401.)
As the Court mentioned above, the video footage
shows that Lewellyn turned her body toward her

App. 45
driveway, and thus away from the deputies, between
the moment she opened her front door to when Paschal
first shot her. (SUV Camera 1 at 12:14:08 to 12:14:12.)
It also shows that Lewellyn rotated her body from her
driveway (see Figure 4) toward Paschal (see Figure 5)
only after he took his first shot. (See Figure 5.)
Another fact issue thus exists about Paschal’s
perception of Lewellyn’s threat when he first fired, and
about Defendants’ description of the scene when
Paschal shot his first bullet. The contention that
Lewellyn turned her body toward Paschal before being
shot is, at best, inconclusive and, at worst, untenable.
The Court thus finds that a genuine dispute of material
fact exists about whether Lewellyn turned her body
toward the deputies before Paschal shot her.
4. The Reasonableness of Paschal’s
Shooting Is Subject to Dispute
Having spotlighted key undisputed and disputed
facts surrounding Paschal’s first pull of the trigger, the
Court now turns to precedent in the Sixth Circuit to
assess the reasonableness of Paschal’s actions.
Defendants rely on Thomas, 854 F.3d, to argue that
“[o]fficers are not liable for shooting in self-defense,
even when the suspect does not point or fire her
weapon at them.” (ECF No. 83-1 at 327.) But a key
factual difference exists between Thomas and here: the
distance between the officer and the suspect at the
moment of the firing.
In Thomas, moments after Officer Kaufman arrived
at the scene where a burglary was allegedly in
progress, “two men exited [the suspect’s] apartment

App. 46
and ran toward him. The first had a gun in his hand.”
854 F.3d at 363. By the time Officer Kaufman “shouted
and then fired two shots at the person with the gun,”
the suspect “had closed the distance to what Officer
Kaufman later estimated to be ten feet.” Id. (emphasis
added). According to the Sixth Circuit, “[a]t this range,
a suspect could raise and fire a gun with little or no
time for an officer to react. Given these facts, a
reasonable officer would perceive a significant threat to
his life in that moment.” Id. at 366 (emphasis added).
But, here, the facts are different. First, the parties
do not dispute that Lewellyn stood around 60 feet away
from Paschal when he shot her. And unlike in Thomas,
where the distance between Officer Kaufman and the
suspect “only shrank as the person closed in on him,”
the distance between Paschal and Lewellyn only
increased as she walked toward her driveway. Id. As
the Sixth Circuit noted, this difference is meaningful:
“[T]he . . . space available to an officer may mean that
the reasonable thing to do is to monitor the suspect,
issue a warning, or take cover.” Id. at 366–67.
Defendants also cite Thornton v. City of Columbus,
727 F. App’x 829 (6th Cir. 2018), to support their
position. But there, too, several facts differ from those
here.
In Thornton, when the officers approached the
suspect’s home, they allegedly could see him “walking
from the bedroom into the living room, . . . holding the
shotgun chest high, angled across his body.” Id. at 831.
The suspect was also “less than fifteen feet away from
the Officers when he entered the living room.” Id.

App. 47
The Sixth Circuit found that, “[t]hough [the suspect]
never pointed the shotgun at the Officers before they
fired their weapons, the undisputed manner in which
[the suspect] was holding the weapon combined with
the short distance between himself and the Officers,”
constituted strong evidence in support of the officers’
position. Id. at 837.
But, here, 60 feet separated Paschal from Lewellyn,
not 15. And unlike in Thornton, where the suspect
wielded his shotgun in threatening ways, Lewellyn did
not “hold[] the gun as though [she] could [move] it
toward them and fire at any moment” between the
moment of her arrival on the scene and the first shot.
Id. at 831. A review of the video evidence here shows
her movements appeared purposeless—almost
complacent—not menacing toward the officers, when
she started walking toward her driveway.
The Court can only find two obvious similarities
between the Sixth Circuit cases cited by Defendants
and the one here. First, like in Thomas and Thornton,
the deputies perceived Lewellyn carrying a gun. And
second, like in Thornton, the deputies knew Lewellyn
had made threats to use her gun against
someone—herself or anyone who approached her home.
But the conjunction of these two facts does not render
reasonable Paschal’s decision to shoot Lewellyn.
Being on notice of a threat of future—even near
future—harm against someone is not enough
justification to use lethal force. See Graham, 490 U.S.
at 396 (holding that a court must assess “whether the
suspect poses an immediate threat to the safety of the
officer or others.”) And perceiving a suspect with a gun

App. 48
is also not enough justification to use deadly force
against them. See Bouggess, 482 F.3d at 896; Thomas,
854 F.3d at 366.
In this way, the Sixth Circuit has held that police
use of lethal force is “reasonable when officers are
confronted with additional indicia of immediate
danger, such as a menacing gesture or other indication
that the individual intends to use his or her weapon.”
Knowlton v. Richland Cty., Ohio, 726 F. App’x 324,
330–31 (6th Cir. 2018). The Court finds that the
“additional indicia of immediate danger” here are
disputable. And because these indicia are disputable,
the grant of summary judgment on Paschal’s Fourth
Amendment violation is inappropriate.11
No disputes exist about the following material facts:
(1) The deputies knew Lewellyn was in mental health
distress; (2) the deputies knew that Lewellyn had made
threats to the 911 dispatch; (3) the deputies saw
Lewellyn walk out of her home with a gun in her right
hand; (4) Paschal waited no more than four seconds
before shooting Lewellyn; (5) the deputies did not warn
Lewellyn before firing; (6) the deputies did not wait for
Lewellyn to respond to their shouting before Paschal
11

The Court notes that much of Defendants’ motion for summary
judgment relates to the events after Paschal’s first shot. The Court
could venture into an analysis over the constitutionality of the
shots after Paschal’s first. But it finds unnecessary to do so.
As the Court shows in the section analyzing the constitutionality
of Wiggins’s use of lethal force, the threat posed by Lewellyn only
decreases after Paschal’s first shot. Thus, because summary
judgment is inappropriate over Paschal’s first shot, it is
inappropriate over Paschal’s later shots.

App. 49
fired; (7) Lewellyn was about 60 feet away from
Paschal when he fired; and (8) Lewellyn walked away
from Paschal before he fired.
But genuine disputes exist about the following
material facts: (1) whether Lewellyn’s mental illness
rendered her actions unpredictable; (2) whether
Paschal saw Lewellyn point her gun toward Jayroe’s
SUV when she walked out of her home; (3) whether
Paschal saw Lewellyn raise her gun in the deputies’
direction once she got to the driveway; and (4) whether
Lewellyn, once having reached the driveway, turned
her body in the deputies’ direction before Paschal shot
her.
Thus, in sum, because the undisputed facts here do
not establish that Lewellyn posed an immediate threat
to the deputies’ lives, and because the facts that could
consist of “additional indicia of immediate danger”
justifying Paschal’s use of lethal force are in dispute,
summary judgment is not appropriate. Knowlton, 726
F. at 330–31. “What exactly happened just before
[Lewellyn] was shot is a question for the jury, as both
sides’ theories of what transpired are sufficiently
supported by evidence in the record,” including the
video footage. King v. Taylor, 694 F.3d 650, 663 (6th
Cir. 2012).
The Court thus DENIES Defendants’ motion for
summary judgment about whether Paschal committed
a Fourth Amendment violation when he shot Lewellyn.

App. 50
B. Wiggins
1. Before Wiggins Arrives on the Scene
As was the case for Paschal, the 911 dispatch had
informed Wiggins that Lewellyn was in mental health
distress. (ECF No. 104-2 at PageID 645.) It also told
Wiggins that she had a gun and was ready to shoot
herself or anyone who approached her home. (Id.)
As shown in the picture below, by the time Wiggins
turned on the street that leads to Lewellyn’s home,
Jayroe and Paschal had parked their cars in front of it.
(See Figure 6.)

Figure 6. SUV Camera 3 at 12:14:08.
2. Lewellyn Steps Out of Her Home
Defendants claim that “Wiggins saw Lewellyn raise
her pistol as she first walked out of the house.” (ECF
No. 83-2 at PageID 342.) But Plaintiff disputes this
assertion. He says that “Wiggins never saw [Lewellyn]

App. 51
aim the bb gun at” the deputies. (ECF No. 104-2 at
PageID 651.)
As depicted by the picture below (Figure 7), the
video footage shows that several dozen feet separated
Wiggins’s SUV from Paschal’s SUV when Lewellyn
first walked out her front door.

Figure 7. SUV Camera 3 at 12:14:09.
The video footage does not show that Wiggins could
see Lewellyn step out of her home, as Defendants argue
was in fact the case. The tree in front of Lewellyn’s
front door could only obstruct Wiggins’s perception of
Lewellyn as she walked onto the scene. (See Figure 7.)
And the distance that separated Wiggins from
Lewellyn when she walked out of her home is much
larger than the distance that separated Paschal from
Lewellyn at that moment. (See id.) Most likely several

App. 52
hundred feet separated Wiggins from Lewellyn when
she stepped out of her home. (See id.)
The deposition testimony of Paschal and Wiggins
also muddles Defendants’ version of the facts. Although
Paschal had a clearer view of the scene than Wiggins
when Lewellyn first made her appearance, Paschal
said that he saw Lewellyn raise her gun for the first
time at the moment he first pulled the trigger when she
was on the driveway. (ECF No. 92-1 at PageID 463.) In
his deposition, he testified:
I had my gun out, and as soon as I saw her and
I saw she had a—I saw the side of her with a
silver handgun and I had my gun up and I saw
her turn and she raised her hand like this
(indicating), and that’s when I started shooting.
She raised her hand. The gun was pointed in our
direction.
(Id.) And Wiggins testified the same way in his
deposition:
I don’t recall seeing [Lewellyn turning right and
starting walking toward the driveway on the
sidewalk]. The last thing I saw before the
shooting took place was Ms. Lewellyn coming
out of her home, walking straight, raised the
gun. I went and took cover and came back out.
(ECF No. 83-6 at PageID 356) (emphasis added.)
Based on the video footage and the deputies’
deposition testimony, the Court thus finds that a
genuine dispute of material fact exists about whether
Wiggins could see Lewellyn raise her gun when she

App. 53
first walked out of her home. See Latits, 878 F.3d at
541 (explaining that the Court should defer to the
nonmoving party’s view of the facts when video footage
is unclear). Far more plausible is that Wiggins saw
Lewellyn raise her gun for the first time when she
reached the driveway. And once she reached the
driveway, there are genuine disputes of material fact
as to (1) which direction Lewellyn was facing and
(2) the direction of the gun when she allegedly raised it.
3. Wiggins Shoots Lewellyn
By the time Paschal fired at Lewellyn for the second
time, Defendants argue that Wiggins had run for “cover
behind the back of his parked vehicle (running away
from Lewellyn), turned round [sic], and began firing.”
(ECF No. 83-2 at PageID 342.)
Plaintiff largely agrees with this statement. (ECF
No. 104-2 at PageID 65.) But he disputes that Wiggins
ever said that he ran away from Lewellyn. (Id.)
The video footage is unclear about Wiggins’s
position when Paschal fired his first shot. (See Figure
8.) But it shows that Wiggins had opened his door and
exited the SUV by the time Paschal fired. (SUV
Camera 3 (Rear) at 12:14:13 to 12:14:14; see also Figure
8 (showing, in the reflection, Wiggins opening the door
and coming out of the SUV).). It also shows Wiggins
moving toward the rear of his SUV when Paschal fired
the second shot. (See Figure 9.)

App. 54

Figure 8. SUV Camera 3 (Rear) at 12:14:14.

Figure 9. SUV Camera 3 (Rear) at 12:14:15.
In this way, viewing the facts in the light most
favorable to Plaintiff—which the Court must do when
multiple interpretations of the video footage are
available, see Latits, 878 F.3d at 541—the Court finds

App. 55
disputable that Wiggins was “running away” from
Lewellyn before shooting, as Defendants suggest. (ECF
No. 83-2 at PageID 342.)
Another plausible interpretation of the footage was
that Wiggins simply tried to take cover behind his SUV
when he heard Paschal’s gunshots, to both have a clear
view of Lewellyn and use his SUV as a shield.
The Court recognizes that the difference between
both interpretations of the facts is slight. But the
difference still bears on Wiggins’s perception of
Lewellyn’s threat—specifically, whether it was
“immediate” or merely possible. Graham, 490 U.S. at
395. If Wiggins’s decision to move behind his SUV was
indeed merely precautionary—plausible from the
perspective of the video footage—then the Court would
find no sound basis to find that he was “running away”
from Lewellyn. (ECF No. 83-2 at PageID 342.)
Defendants further argue that Wiggins’s decision to
shoot Lewellyn was reasonable because she had a gun,
“she said she would kill anyone who came to the scene,”
and she raised her gun at the moment she reached her
driveway. (ECF No. 83-1 at PageID 333.) But Plaintiff
counters that, even if these facts are true, when the
officers fired at her, Lewellyn “posed no threat of death
or seriously bodily injury to [Wiggins] or anyone else.”
(ECF No. 104-1 at PageID 631.)
To assess the merits of the parties’ positions, the
Court must once again emphasize the so-called
segmenting approach that it must use when analyzing
excessive force claims.

App. 56
Under this approach, this Court “should first
identify the ‘seizure’ at issue here and then examine
‘whether the force used to effect that seizure was
reasonable in the totality of the circumstances, not
whether it was reasonable for the police to create the
circumstances.’” Lubelan, 476 F.3d at 406 (citing
Dickerson v. McClellan, 101 F.3d 1151, 1161 (6th Cir.
1996)).
Wiggins’s alleged seizure of Lewellyn began with his
first shot. (SUV Camera 3 (Rear) at 12:14:17; see also
Figure 9.) The issue for the Court to analyze is thus
whether, “in the totality of circumstances,” Wiggins’s
decision to shoot when he did was reasonable. And
because the threat posed by Lewellyn only decreased
after Paschal’s first shot, the Court finds there are
genuine disputes of material fact over whether she
posed an immediate threat to Wiggins’s safety when he
first pulled the trigger. Graham, 490 U.S. at 396.
a. Paschal Fires Two Shots
The video camera attached to Jayroe’s SUV shows
that, by the time Paschal fired twice at Lewellyn, she
had lost her balance and was visibly injured. The
picture below shows Lewellyn when Paschal shot her
for the first time:

App. 57

Figure 10. SUV Camera 1 at 12:14:12.
Paschal struck her; as the picture below (Figure 11)
shows, Lewellyn immediately grabbed her back with
her left hand, as if in pain, and began her gradual
tumble toward the car in her driveway:

Figure 11. SUV Camera 1 at 12:14:13.

App. 58
When Paschal shot for the second time as shown in
Figure 12 below, Lewellyn’s arms were parallel to her
body, her torso and legs fully rotated toward the car in
her driveway:

Figure 12. SUV Camera 1 at 12:14:13.
Once Paschal shot her twice, Lewellyn’s injury is
nothing short of obvious from the video footage’s
standpoint. She began tumbling toward her car, visibly
weakened by Paschal’s two shots:

App. 59

Figure 13. SUV Camera 1 at 12:14:14.
She then put her two hands on the car in the
driveway, one seemingly on the windshield and the
other on the car’s hood:

Figure 14. SUV Camera 1 at 12:14:15.
The Court can comfortably find, based on the
sequence of events depicted by Figures 10 through 15,

App. 60
that any threat posed by Lewellyn decreased after
Paschal’s first shot. The Court now proceeds with an
analysis of the pause between Paschal’s second shot
and Wiggins’s first.
b. The Pause
About three seconds separated Paschal’s second
shot and Wiggins’s first. Figure 10 above shows
Lewellyn when Paschal fired his first bullet. And
Figure 15 below displays Lewellyn as she turns from
the car when Wiggins pulled the trigger for the first
time:

Figure 15. SUV Camera 1 at 12:14:15.
The parties contest what happened during this
three-second pause. According to Defendants,
“Lewellyn leaned against her car and placed the pistol
on the hood of it.” (ECF No. 83-2 at PageID 342.) They
add that, “[o]nce on the hood, the pistol was not visible
from SUV 1’s perspective.” (Id.) Defendants thus claim,
under this interpretation of the facts, that “[n]either

App. 61
Wiggins nor Paschal realized that Lewellyn discarded
her pistol until after they stopped shooting and
approached her.” (Id. at PageID 343.)
Pointing to the video evidence captured by the video
camera attached to Jayroe’s car, Plaintiff disagrees
with Defendants’ interpretation. Plaintiff disputes
“whether the pistol was visible from SUV 1’s
perspective or Defendants’ perspective.” (ECF No. 14-2
at PageID 654.) Instead, Plaintiff argues that Lewellyn
left the gun on the hood of the car. He notes that
“Lewellyn clearly held out her two arms, with palms
and/or hands open, after surrendering the bb gun on
the hood of the car and Defendants continued to shoot
her multiple times.” (Id.)
Two fact issues emerge from the parties’
interpretations of Wiggins’s first shot: (1) Whether the
deputies perceived Lewellyn put the gun on the car’s
hood; and (2) whether the deputies saw that Lewellyn’s
hands were empty after leaning on her car.
As to the first issue, the video footage does not show
Lewellyn put the gun on the car’s hood. (See Figure 14.)
But the video footage does capture a loud noise when
Lewellyn reached for the car—a noise that appears to
be Lewellyn slamming the gun down on the car. (SUV
Camera 1 at 12:14:15.)
Although the Court must view facts in the light
most favorable to Plaintiff when multiple
interpretations of the video footage are possible,
Plaintiff cannot point to evidence other than the video
to support its claim that the deputies could see the gun
on the car’s hood. (ECF No. 104-2 at PageID 654.) And

App. 62
so the Court adopts Defendants’ position on this point
and finds that no genuine dispute of material facts
exists about whether the deputies perceived Lewellyn
put the gun on the car’s hood. See Tingle, 692 F.3d at
529.
That said, the Court finds that the second
issue—whether the deputies saw that Lewellyn’s hands
were empty after leaning on her car—raises a genuine
dispute of material fact. And as the Court will explain
below, this dispute bears on whether the deputies could
have inferred that Lewellyn had put her gun on the car
when she leaned on it.
The video footage shows that Lewellyn’s hands were
empty when Wiggins took his first shot. (See Figure
15.) And as displayed below in Figure 16, Lewellyn
reached down to the ground milliseconds after
Wiggins’s first shot with her palms open to the ground.

Figure 16. SUV Camera 1 at 12:14:16.
Viewing “the facts in the light depicted by the
videotape,” the Court can only conclude that a genuine

App. 63
dispute of material fact exists as to whether the
deputies saw that Lewellyn’s hands were empty after
leaning on her car. Scott, 550 U.S. at 381. To take
Defendants’ word on this issue would undercut
unequivocal video evidence that Lewellyn’s hands were
empty after she leaned on the car in her driveway.
And as mentioned above, this genuine dispute of
material fact bears heavy weight on whether Wiggins
and the other deputies could—or should—have known
that Lewellyn had put the gun on the car. After all,
where else could Lewellyn have placed her gun
between Paschal’s second shot and Wiggins’s first?
Based on the video footage, the Court finds that the car
seems like the only reasonable option.
c. The Shots After the Pause
The parties dispute some of the facts after Wiggins’s
first shot. For instance, they dispute the exact moment
when the deputies shot the tenth, and last, bullet at
Lewellyn. (ECF No. 104-2 at PageID 655.) They also
dispute whether, after falling to the ground, Lewellyn
“continued to shift her position.”12 (Id.)
12

For instance, Defendants point to Williams v. City of
Chattanooga, Tennessee, No. 18-5516, 2019 WL 2145649 (6th Cir.
May 15, 2019), to emphasize the importance of Lewellyn’s conduct
once she fell on the ground. They try to analogize the conduct of
the suspect in Williams—who, once shot twice by officers, “shifted
his position [on the ground], rolling onto his stomach with both
arms outstretched in front of him on the ground”—with that of
Lewellyn. Id. at *2.
But like Defendants cite in their own brief, the Sixth Circuit found
that the officers “had probable cause to shoot [the suspect], even
those arriving later in time, because they could have reasonably

App. 64
But the Court finds that resolving these disputes
does not help the Court analyze Wiggins’s alleged
violation under the Fourth Amendment. As shown
below in Figure 17, Lewellyn was visibly incapacitated,
and thus unthreatening, by the time deputies shot for
the sixth time:

Figure 17. SUV Camera 1 at 12:14:17.
The Court thus finds it appropriate to analyze
Wiggins’s alleged constitutional violation when he first
pulled the trigger. As the Court will explain below, this
moment was when Lewellyn’s alleged threat was at its

believed that [the suspect] was reaching for his gun as he was
moving on the ground, consistent with his prior sprint toward [one
of the officers].” Id. at *4 (emphasis added). The Court finds that
the facts there cannot compare to those here. The video footage
shows that, when Lewellyn started crumbling to the ground, no
gun was in sight, and she displayed nothing to suggest imminent
danger. (See Figure 15; Figure 16; Figure 17.) The threat she posed
then was thus nothing like that of the suspect in Williams when
the suspect there kept moving on the ground.

App. 65
highest from Wiggins’s perspective. But, as the Court
will also explain, the imminence of Lewellyn’s alleged
threat is subject to genuine disputes of material fact.
The Court thus DENIES Defendants’ motion for
summary judgment over whether Paschal committed a
Fourth Amendment violation when he shot Lewellyn.
4. The Reasonableness of Wiggins’s
Shooting Is Subject to Dispute
To assess whether Wiggins had “probable cause to
believe that [Lewellyn posed] a significant threat of
death or serious physical injury to the officer or others,”
the Court must first parse out the undisputed and
disputed facts relevant to his decision to shoot
Lewellyn. Garner, 471 U.S. at 3.
The undisputed material facts relevant to Wiggins
are generally similar to those relevant to Paschal. They
include the following: (1) Wiggins knew Lewellyn was
in mental health distress; (2) Wiggins was aware of the
threatening phone call that Lewellyn had made to the
911 dispatch; (3) Wiggins saw Lewellyn walk from her
home to the driveway with a gun in her right hand;
(4) Wiggins stood at more than 60 feet away from
Lewellyn when he fired13; (5) Wiggins did not give
13

Because Paschal stood about 60 feet away from Lewellyn when
he first took fire, the Court finds undisputed that Wiggins’s
distance is several feet farther away when he decided to do the
same. Wiggins parked his SUV behind Paschal’s, and he stood
behind it when he shot Lewellyn. As the Court explained for
Paschal, this fact bears on the reasonableness of Wiggin’s decision
to shoot Lewellyn. See Thomas, 854 F.3d at 366–67 (noting the
importance of assessing the space available to an officer before
deciding to use deadly force in excessive force cases).

App. 66
Lewellyn any warning before firing; (6) Wiggins did not
directly perceive Lewellyn put the gun on the car’s
hood; and (7) Lewellyn had pushed off the car in the
driveway before Wiggins first pulled the trigger.
And about the disputed material facts relevant to
Wiggins, the Court finds that they include the
following: (1) whether Lewellyn’s mental illness
rendered her actions unpredictable; (2) whether
Wiggins saw Lewellyn step out of her home with the
gun raised in the deputies’ direction; (3) whether
Wiggins ran away from Lewellyn or simply decided to
take cover behind his SUV before shooting; (4) whether
Paschal saw Lewellyn raise her gun in the deputies’
direction once she got to the driveway; (5) whether
Lewellyn, once having reached the driveway, turned
her body in the deputies’ direction before he shot her;
and (6) whether Wiggins saw that Lewellyn’s hands
were empty after leaning on the car in the driveway.14
The Court finds, like it did for Paschal, that the
undisputed facts relevant to Wiggins do not establish
that his use of lethal force toward Lewellyn was
reasonable.
That Wiggins knew Lewellyn had made threats
when calling the 911 dispatch is not enough

14

As the Court already noted, the Court finds undisputed that
Wiggins did not directly perceive Lewellyn drop her gun on the
car’s hood. But the Court does not find undisputed that Wiggins
could have inferred that Lewellyn had done so before he shot his
first bullet. This inference was available to Wiggins because
Lewellyn’s hands were empty when she pushed herself off the car
in the driveway.

App. 67
justification to use lethal force against her. See
Graham, 490 U.S. at 396. That he perceived her walk
from her door to her driveway with a gun in her right
hand similarly does not justify his conduct. See
Bouggess, 482 F.3d at 896; Thomas, 854 F.3d at 366.
The Court stresses that undisputed facts must suggest
something more—an “additional indicia of immediate
danger”—for the use of force to be reasonable.
Knowlton, 726 F. at 330–31. Based on the video
footage, as well as the facts outlined by the parties, the
Court finds that no such undisputed indicia work in
favor of Wiggins’s conduct here.
Even if Wiggins saw Lewellyn raise the gun when
she reached her driveway, the Court’s analysis does not
stop there. The Court must assess several other factors:
(1) the warnings given by the deputies, see Garner 471
U.S. at 11–12; (2) the distance between Lewellyn and
Wiggins at the time of the shooting, see Thomas, 854
F.3d at 366–67; (3) the direction in which Lewellyn was
facing and pointed her gun, see King, 694 F.3d at 663;
(4) how and whether Lewellyn wielded her weapon, see
Thornton, 727 F. App’x at 831; and (5) any “other
indication that the individual intends to use his or her
weapon,” Knowlton, 726 F. App’x at 330–31.
The Court finds that these factors are either
undisputed in Plaintiff’s favor or disputed. The Court
thus DENIES Defendants’ motion for summary
judgment over whether Wiggins committed a Fourth
Amendment violation when he shot Lewellyn.

App. 68
II.

Clearly Established Law
A. Standard

Defendants argue that, even if enough evidence
shows that Defendants violated Plaintiff’s Fourth
Amendment rights, Defendants are entitled to qualified
immunity. (See ECF No. 83-1 at PageID 335.)
“Police officers are immune from civil liability,
unless, in the course of performing their discretionary
functions, they violate the plaintiff’s clearly established
constitutional rights.” Mullins v. Cyranek, 805 F.3d
760, 765 (6th Cir. 2015) (citing Messerschmidt v.
Millender, 565 U.S. 535, 546 (2012)). “Qualified
immunity allows police officers ‘breathing room to
make reasonable but mistaken judgments and protects
all but the plainly incompetent or those who knowingly
violate the law.’” Nelson v. City of Battle Creek,
Michigan, No. 18-1282, 2020 WL 916966, at *2 (6th
Cir. Feb. 26, 2020) (quoting Stanton v. Sims, 571 U.S.
3, 6 (2013) (per curiam)).
The Sixth Circuit “has long recognized that the
purpose of this doctrine is to protect officers ‘from
undue interference with their duties and from
potentially disabling threats of liability.’” Id. (quoting
Sample v. Bailey, 409 F.3d 689, 695 (6th Cir. 2005)).
“Once the defending officer raises qualified immunity,
the plaintiff bears the burden of showing that the
officer is not entitled to qualified immunity.” Id. (citing
Burgess v. Fischer, 735 F.3d 462, 472 (6th Cir. 2013);
Coble v. City of White House, 634 F.3d 865, 870–71 (6th
Cir. 2011)).

App. 69
“There need not be ‘a case directly on point’ for the
law to be clearly established, ‘but existing precedent
must have placed the statutory or constitutional
question beyond debate.’” Id. at *3 (quoting Ashcroft v.
al–Kidd, 563 U.S. 731, 741 (2011)). “To violate a
plaintiff’s clearly established right, an officer’s conduct
must be such that, at the time of the allegedly-violative
conduct, the contours of that right were sufficiently
defined that every ‘reasonable official would have
understood that what he is doing violates that right.’”
Id. (quoting Anderson v. Creighton, 483 U.S. 635, 640
(1987)). “Whether an asserted constitutional right was
‘clearly established’ at such time ‘presents a question of
law,’ not fact.” Id. (quoting Elder v. Holloway, 510 U.S.
510, 516).
B. Supreme Court
Precedent

and

Sixth

Circuit

The Court has established above that, when viewing
the record in the light most favorable to either the
video footage or Plaintiff, Defendants may have
violated Plaintiff’s Fourth Amendment right to be free
from excessive force. The Court must then turn to
“whether that right was clearly established at the time
of the challenged conduct.” Id. (citing Burgess, 735 F.3d
at 472; Saucier v. Katz, 533 U.S. 194, 201 (2001)).
Defendants argue that “Plaintiff can cite no
Supreme Court or Sixth Circuit case law that put
Wiggins and Paschal on notice that their actions that
day, in light of the particular circumstances they faced,
were unreasonable.” (ECF No. 83-1 at PageID 336.)
They add that, “[a]t a minimum, their conduct was not
established ‘beyond debate’ as unconstitutional.” (Id.)

App. 70
In response, Plaintiff cites several Sixth Circuit
cases before the day of Lewellyn’s seizure “to show that
the constitutional right was clearly established,” and
that “existing precedent . . . squarely governs the
specific facts at issue.”15 (ECF No. 104-1 at PageID
636–37.)
The Court finds Plaintiff’s position well-taken.
When Paschal and Wiggins used lethal force against
Lewellyn, “existing precedent . . . placed the . . .
constitutional question beyond debate.” Ashcroft, 563
U.S. at 741.
To start with, “[i]t has been clearly established in
this circuit for some time that ‘individuals have a right
not to be shot unless they are perceived as posing a
threat to officers or others.’” King, 694 F.3d at 664
(quoting Ciminillo v. Streicher, 434 F.3d 461, 468 (6th
Cir. 2006)). And the Sixth Circuit has also held that
using lethal force against a suspect only because they
have a gun in their hand is also a basis for finding a
constitutional violation. See Bouggess, 482 F.3d at 896.
“Still, ‘the qualified immunity inquiry . . . must be
undertaken in light of the specific context of the case,
not as a broad general proposition.’” McDonald, N2014
WL 12656975, at *6 (quoting Lyons v. City of Xenia,

15

Plaintiff cites these cases, which the Court orders
chronologically: Brandenburg v. Cureton, 882 F.2d 211 (6th Cir.
1989); Russo v. City of Cincinnati, 953 F.2d 1036 (6th Cir. 1992);
Sova v. City of Mt. Pleasant, 142 F.3d 898 (6th Cir. 1998);
Ciminillo v. City of Cincinnati, 434 F.3d 461 (6th Cir. 2006); King
v. Taylor, 694 F.3d 650 (6th Cir. 2012); and Margeson v. White
County, Tennessee, 579 Fed. App’x. 466 (6th Cir. 2014).

App. 71
417 F.3d 565, 572 (6th Cir. 2005)). But “there need not
be a case with the exact same fact pattern, or even
‘fundamentally similar’ or ‘materially similar’ facts;
rather, the question is whether the defendants had ‘fair
warning’ that their actions were unconstitutional.”
Cummings v. City of Akron, 418 F.3d 676, 687 (6th Cir.
2005) (quoting Hope v. Pelzer, 536 U.S. 730, 741
(2002)).
Even so, when looking closer at the facts here and
comparing them to other cases in the Sixth Circuit, the
Court comfortably finds that precedent has “placed
the . . . constitutional question beyond debate.”
Ashcroft, 563 U.S. at 731. The Court thus finds that
Defendants had a “fair warning” that the allegations
stated against them, if true, would constitute a Fourth
Amendment violation. Hope, 536 U.S. at 741.
Among the panoply of Sixth Circuit cases to which
Plaintiff cites to support his position, the Court finds
that three among them apply with force here. These
cases show that the use of lethal force against an
armed suspect who does not pose an imminent threat
of harm constitutes a Fourth Amendment violation.
1. Brandenburg v. Cureton
First, in Brandenburg v. Cureton, 882 F.2d 211 (6th
Cir. 1989), three officers came to the plaintiff’s home to
serve a peace warrant. One of the officers shot and
killed the plaintiff after he had refused to submit to the
officers’ instruction to “submit to the peace warrant”
and “to not pick up his rifle” that he had temporarily
laid down. Id. at 213.

App. 72
Emphasizing the principle that “[t]he use of deadly
force is reasonable if an officer believes that there is a
threat of serious physical harm to the officer or others,”
the Sixth Circuit focused its analysis in part on
conflicting evidence about whether the plaintiff had
pointed his gun directly in the officer’s direction. Id. at
215 (citing Young v. City of Killeen, Tex., 775 F.2d
1349, 1353 (5th Cir. 1985)). The Sixth Circuit also
found important that the defendants’ expert did not see
evidence that the plaintiff “was . . . grasping the
trigger,” and that only one of the three officers chose to
shoot the plaintiff. Id.
The fact issues in Brandenburg are much like those
here. First, conflicting evidence exists about whether
Lewellyn ever pointed her gun directly in Defendants’
direction. Second, little to no evidence suggests that
Lewellyn was ready or willing to shoot her gun. And
third, only two of the three deputies on the scene shot
Lewellyn, even if Jayroe were presumably under the
same threat as Paschal and Wiggins.16
Thus, because the Sixth Circuit “recognize[d] that
a reasonable person might believe that [the defendant
there] acted unreasonably in firing the shot that killed
[the plaintiff],” the Court finds that Defendants here
were on notice that behaving similarly could lead to a
violation under the Fourth Amendment. Id.
16

The Court notes that, at least according to a news report written
after the incident, Jayroe was the only of the three deputies who
was a member of the Crisis Intervention Team allegedly “a
specialized group of deputies trained to use empathy and
negotiation to defuse tense situations involving mental illness.”
(ECF No. 101.)

App. 73
2. Dickerson v. McClellan
Second, in Dickerson, 101 F.3d, two officers
responded to a call that suggested that the plaintiff,
allegedly intoxicated at the time, had fired his weapon
nine times. One of the officers shot and killed the
suspect, whom the officer had heard yell threats at the
officers, as the suspect ran toward his front door. Id. at
1154–55. The suspect had a revolver when the officer
shot him, but he had neither cocked nor shot it in the
officers’ presence. Id. at 1155.
As in Brandenburg, the Sixth Circuit in Dickerson
considered “the crucial question of whether [the
shooting officer’s colleague] saw [the suspect] point his
gun at [the shooting officer].” Id. at 1163 (emphasis
added). Partly because the evidence used to answer
this question was inconsistent, the Sixth Circuit held
that it was without jurisdiction to review the qualified
immunity issue. Id. at 1164.
As the Court mentioned above, the crucial fact issue
present in Dickerson is present here. The evidence is at
best inconclusive about whether Lewellyn ever pointed
her gun toward the deputies.
But what appears clear, under Brandenburg and
Dickerson, is that an officer has committed a Fourth
Amendment violation when they use lethal force
against a suspect who has not directly threatened the
officer with their weapon. Cf. Margeson v. White Cty.,
Tenn., 579 F. App’x 466, 471 (6th Cir. 2014). Paschal
and Wiggins were thus on notice of this rule the day of
the incident.

App. 74
3. King v. Taylor
Third and finally, in King, 694 F.3d, several officers
sought to arrest the plaintiff at his home because he
had allegedly made life threats to his ex-wife. “Through
two glass doors, [one of the officers] saw [the plaintiff]
lying on his couch in his underwear, with a blanket
partially covering him.” Id. at 654. The officer shot and
killed the plaintiff after the latter allegedly learned of
the officer’s presence and pointed a gun at him. Id.
The Sixth Circuit reversed the district court’s grant
of summary judgment because “a jury could find, based
upon the forensic evidence, expert testimony, and
common sense, that [the plaintiff] did not threaten the
officers by pointing a gun at them just before he was
shot.” Id. at 662.
Relying on Brandenburg, the Sixth Circuit
“conclude[d] that a factual dispute exists whether [the
officer] reasonably believed that [the plaintiff] posed a
threat of serious physical harm to Taylor or the other
officers.” And so it “ha[d] little trouble concluding that
if [the defendant] shot [the plaintiff] while he was lying
on his couch and not pointing a gun at the officers, [the
defendant] violated [the plaintiff’s] clearly-established
right to be free from deadly force.” Id. at 664.
B. The Law Was Clearly Established When
the Deputies Shot Lewellyn
The Court here can only reach the same conclusion
as the Sixth Circuit did in King. Using lethal force
when a disputed view of the evidence suggests that
Lewellyn neither pointed her gun toward the officers
nor used the gun in a threatening way violates a clearly

App. 75
established Fourth Amendment right under Sixth
Circuit precedent. See King, 694 F.3d at 663; see also
Brandenburg, 882 F.2d at 215 (6th Cir. 1989).
Furthermore, as the Court explained above,
Defendants never waited for Lewellyn to respond to
their shouting, even if Garner explained long ago that
law enforcement must use warnings when feasible
against suspects before using lethal force. See 471 U.S.
at 11–12; Bouggess, 482 F.3d at 892 (6th Cir. 2007)
(citing Craighead, 399 F.3d at 962) (denying qualified
immunity partly because Defendant “Mattingly never
warned [the suspect] that he might shoot, as required
by Garner when feasible under the circumstances.”).
Although the parties did not argue extensively over
the feasibility of the warning, the Court still finds that
a jury could find that a warning was indeed feasible.
This finding would also support that Defendants
violated Plaintiff’s clearly established right to be free
from lethal force without prior feasible warnings.
All in all, “[h]aving established a clearly established
right, ‘if genuine issues of material fact exist as to
whether the defendants actually did commit acts that
would violate a clearly established right, then
summary judgment on qualified immunity is
improper.’” McDonald, 2014 WL 12656975, at *6
(quoting Poe v. Haydon, 853 F.2d 418, 426 (6th Cir.
1988)). And because these genuine issues of material
fact exist here, the Court thus finds that qualified
immunity does not apply for Defendants. The Court
thus DENIES Defendants’ motion for summary
judgment over whether Paschal and Wiggins violated

App. 76
Lewellyn’s clearly established Fourth Amendment
right when they use lethal force against her.
III.

The Reasonableness of Defendants’ Actions
in Light of Clearly Established Law

The third and final question that the Court must
answer is whether Plaintiff has put forth enough
evidence “to indicate that what [Defendants] allegedly
did was objectively unreasonable in light of the clearly
established constitutional rights.” Feathers, 319 F.3d at
848 (6th Cir. 2003) (quoting Williams, 186 F.3d at 691).
As the Court has explained above, a question exists
“as to the reasonableness of [Defendants’] actions
toward the Plaintiffs in this case.” McDonald, 2014 WL
12656975, at *6. This question pertains to several fact
issues already spotlighted above by the Court. The
Court thus finds that summary judgment as to the
qualified immunity is not appropriate here. The Court
thus DENIES Defendants’ motion for summary
judgment as to whether Paschal and Wiggins’s actions
were reasonable given clearly established law.
CONCLUSION
For the above reasons, the Court DENIES
Defendants’ motion for summary judgment.
SO ORDERED, this 1st day of April, 2020.
s/Thomas L. Parker
THOMAS L. PARKER
UNITED STATES DISTRICT JUDGE

